No.

IN THE
SUPREME COURT OF THE UNITED STATES
Elizabeth Aviles-Wynkoop, Petitioner
vs
Department of Defense, Respondents
CERTIFICATE OF SERVICE
I certify that the attached Document(s) was (were) sent as indicated this day to each
of the following:
UPS Next Day Air Delivered with 40 copies plus one loose copy for scanning to:
US Supreme Court
Clerk of Court
One First Street NE
Washington, DC 20543
Supreme Court Clerk's Office at 202-479-3011
Petitioner:

Hand Delivered:
Elizabeth Aviles-Wynkoop, Pro-Se

753B Delaware Ave SW; Washington, DC 20024
-21-

PROOF OF SERVICE
I, Elizabeth Aviles-Wynkoop, do swear or declare, that on this date,
23 January 2021, as required by Supreme Court Rule 29 I have served the enclosed
PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail
properly addressed to each of them with a first-class postage prepaid, or by delivery
to a third-party commercial carrier for delivery within 3 calendar days.
The name and address of those being served are as follows with them each
receiving four (4) copies per UPS Next Day Air:

Solicitor General of the United States (see Rule 29.4)
Room 5616
Department of Justice
950 Pennsylvania Avenue, N. W.
Washington, DC 20530-000

The names and addresses of those being served are as follows with them each
receiving one copy per UPS Next Day Air:

Agency Representative JOSEPH H. HUNT, Assistant Attorney General
Commercial Litigation Branch; Civil Division; U.S. Department of Justice
950 Pennsylvania Ave NW; Washington, DC 20530
Phone (202) 514-3368; Fax (202) 514-9963

-22-

Agency Representative: ROBERT E. KIRSCHMAN, Jr. Director
Commercial Litigation Branch; Civil Division; U.S. Department of Justice
1100 L St NW, RM 12124; Washington, DC 20530
Phone (202) 514-3368; Fax (202) 514-9963
Agency Representative: REGINALD T. BLADES, Jr. Assistant Director
Commercial Litigation Branch; Civil Division; U.S. Department of Justice
1100 L St NW, 8th Floor; Washington, DC 20530
Phone (202) 307-6288; Fax (202) 305-7643
Agency Representative: Delisa Sanchez
Commercial Litigation Branch; Civil Division; U.S. Department of Justice
1100 L St NW, RM 12124; Washington, DC 20530
Phone (202) 307-6288; Fax (202) 305-7643

I declare under penalty of perjury that the foregoing is true and correct.

Elizabeth Aviles-Wvnkoop

Executed on 23 January 2021.

-23-

